App. 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on
the 18th day of January, two thousand
nineteen.

Leslie Moore Mira,
Plaintiff - Appellant,
v.
Argus Media, John Demopoulos, Ian Michael
Stewart, Miles Weigel,
Defendants - Appellees.

ORDER
Docket No^ 17-1929
Appellant, Leslie Moore Mira, filed a
motion for panel reconsideration, or, in the
alternative, for reconsideration en banc. The

App. 2

panel that determined the appeal has considered
the request for reconsideration, and the active
members of the Court have considered the
request for reconsideration en banc.
IT IS HEREBY ORDERED that the
motion is denied.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
United States Court of Appeals, Second Circuit

App. 3

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse,
40 Foley Square, in the City of New York, on the
25th of September, two thousand eighteen.
Present:

Denny Chin,
Raymond J. Lohier, Jr.,
Circuit Judges,
John F. Keenan,
District Judge.1

Leslie Moore Mira, Plaintiff-Appellant,
v.

17-1929

Argus Media, et al., Defendants-Appellees.

1 Judge John F. Keenan, of the United States District
Court for the Southern District of New York, sitting by
designation.

App. 4

Appellant, pro se, moves for appointment
of counsel. Upon due consideration, it is hereby
ORDERED that the motion is DENIED and the
appeal is DISMISSED because it “lacks an
arguable basis either in law or in fact.” Neitzke
v. Williams, 490 U.S. 319, 325 (1989); see also 28
U.S.C. § 1915(e).

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
United States Court of Appeals, Second Circuit

App. 5

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

LESLIE MOORE MIRA, Plaintiff,
-y-

ARGUS MEDIA, et al., Defendants.

No. 15-cv-9990 (RJS)
ORDER
RICHARD J. SULLIVAN. District Judge:
Now before the Court is Plaintiffs request
for leave to amend her complaint. (Doc. No. 69)
For the reasons set forth below, Plaintiffs
motion is denied.
I. BACKGROUND2
On December 22, 2015, pro se Plaintiff
Leslie Moore Mira (“Mira”) commenced suit
against Defendants Argus Media (“Argus”) and
2 In deciding this request, the Court has considered
Plaintiffs Proposed Amended Complaint (Doc. No. 69
(“PAC”)), Plaintiffs letter in support of amendment (Doc.
No. 69), Defendants’ response letter in opposition (Doc.
No. 70).

App. 6

Argus
employees
John
Demopoulos
(“Demopoulos”),
Ian
Michael
Stewart
(“Stewart”), and Miles Weigel (“Weigel”),
alleging violations of Title VII, the New York
State Human Rights Law (“NYSHRL”), and the
New York City Human Rights Law
(“NYCHRL”). (Doc. No. 2) Defendants moved
to dismiss the complaint under Federal Rule of
Civil Procedure 12(b)(6) on August 29, 2016
(Doc. No. 46), and the motion was fully briefed
on October 11, 2016 (Doc. No. 59). On March 29,
2017, the Court granted Defendants’ motion to
dismiss the complaint. (Doc. No. 67.) Because
Mira’s opposition brief included a cursory
request for leave to amend in the event of
dismissal, but did not attach a proposed
amended complaint or explain how she planned
to cure the defects of the original complaint (Doc.
No. 58 at 2), the Court instructed Mira to submit
a letter and proposed amended complaint by
April 19, 2017 if she still wished to request leave
to amend (Doc. No. 67 at 2l). The Court
admonished Mira, however, that asserting
further conclusory claims about “sexual and
gender animus” and vague and speculative
connections between prosaic workplace events
and Mira’s private life would be insufficient to
cure the defects of the original complaint. (Id.)

App. 7

On April 19, 2017, Mira submitted a letter and
proposed amended complaint that once again
asserts claims under Title VII, the NYSHRL,
and the NYCHRL, and also adds claims under
42 U.S.C.
§§ 1981 and 1985(3). (Doc. No. 69.) Defendants
submitted a response letter on April 24, 2017,
opposing Mira’s request for leave to file the
proposed amended complaint. (Doc. No. 70.)
II. LEGAL STANDARD
Rule 15(a)(2) of the Federal Rules of Civil
Procedure requires that the Court “freely give
leave [to amend] when justice so requires.”
Nonetheless, “it is within the sound discretion of
the district court to grant or deny leave to
amend.” McCarthy v. Dun & Bradstreet Corp.,
482 F.3d 184, 200 (2d Cir. 2007). Thus, “[l]eave
to amend, though liberally granted, may
properly be denied for: undue delay, bad faith or
dilatory motive on the part of the movant,
repeated failure to cure deficiencies by
amendments
previously
allowed,
undue
prejudice to the opposing party by virtue of
allowance of the amendment, [or] futility of
amendment.” Ruotolo v. City ofNew York, 514
F.3d 184, 191 (2d Cir. 2007) (citation and
quotation marks omitted). The futility of an

App. 8

amendment is assessed under the standard for a
Rule 12(b)(6) motion to dismiss. See Dougherty
v. Town ofN. Hempstead Bd. ofZoning Appeals,
282 F.3d 83, 88 (2d Cir. 2002) (citation omitted)
(“An amendment to a pleading will be futile if a
proposed claim could not withstand a motion to
dismiss pursuant to Rule 12(b)(6).”). Thus, as it
would on a motion to dismiss, the Court must
accept as true all factual allegations contained in
a proposed amended complaint and draw all
reasonable inferences in favor of the plaintiff.
See ATSI Commc’ns, Inc. v. Shaar Fund, Ltd.,
493 F.3d 87, 98 (2d Cir. 2007). However, that
tenet “is inapplicable to legal conclusions.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Thus, a proposed amended complaint that offers
only “labels and conclusions” or “a formulaic
recitation of the elements of a cause of action will
not do.” Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007).
III. DISCUSSION
A. Title VII
The proposed amended complaint asserts
the same three Title VII claims against Argus as
did the original complaint: (l) a claim for
employment discrimination on the basis of
national origin and sex! (2) a hostile work

App. 9

environment claim; and (3) a claim for employer
retaliation. Because the Court’s previous order
set out at length the elements that must be
plausibly supported by factual allegations for
each of these claims, the Court assumes the
parties’ familiarity with those elements and
addresses only those that are pertinent here.
Most importantly, a plaintiff asserting any of
these claims must show a causal connection
between the alleged adverse action and her
protected characteristic—she must show that
she was terminated or subjected to a hostile
work environment because o/her sex or national
origin, or that she was retaliated against
because she opposed unlawful treatment.
. Although at the pleading stage a plaintiff need
only assert facts that give “plausible support to
a minimal inference of discriminatory
motivation,” Littlejohn v. City ofNew York, 795
F.3d 297, 311 (2d Cir. 2015), claims under Title
VII are nonetheless futile “where a plaintiff fails
‘to plead any facts that would create an inference
that any adverse action taken by any defendant
was based upon [a protected characteristic of the
plaintiff].’” Williams v. Time Warner Inc., 09-cv2962 (RJS), 2010 WL 846970, at *3 (S.D.N.Y.
Mar. 3, 2010) (quoting Patane v. Clark, 508 F.3d
106, 112 (2d Cir. 2007) (per curiam)). In

App. 10

addition, a hostile work environment claim must
be supported by facts that tend to show that the
complained-of conduct was “objectively severe or
pervasive,” Patane, 508 F.3d at 113 (emphasis
added), and a claim for retaliation must rest on
facts showing that the plaintiff engaged in a
protected activity that was known to the
defendant, id. at 115. Because the Court finds
that the proposed amended complaint fails to
allege facts that meet even the minimal
requirements applicable here, Mira’s request to
amend her complaint to assert these Title VII
claims is denied on the ground of futility.
First, the proposed complaint does not
remedy the original complaint’s failure to allege
facts that tend to show a causal connection
between Mira’s alleged treatment and her
protected characteristics. Instead, it once again
recites isolated comments and actions by Mira’s
coworkers, assumes that those comments and
actions must have been veiled references to
Mira’s private life, which she believes is under
surveillance, and asserts in conclusory fashion
that the alleged comments, actions, and
surveillance resulted from “discriminatory
animus”—precisely what the Court warned
would be insufficient to cure the defects of the

App. 11
original complaint. The proposed amended
complaint alleges no new facts that come close to
suggesting that Mira was terminated because
she is a woman or is Mexican-American. Nor do
any of the new allegations tend to show that
Mira was subjected to a hostile work
environment
because of her protected
characteristics. For example, the proposed
complaint states, conclusorily, that Defendants
“harassed [Mira] on the basis of her gender” by
“accessing images of her” and “eavesdropping]
on her.” (PAC ^ 7.) In a similar vein, it asserts
that Defendants “discriminated against [Mira]
on the basis of her [national origin]” because a
co-worker once “voiced concern” about a racially
insensitive joke made by Stewart out of Mira’s
hearing, another coworker once “praised” an
unidentified professional contact as a “good
Irish-American,” and Weigel “fixated” on
whether Mira had visited a penitentiary
museum, which Mira took as an indirect jab at
her naturalized citizenship. (See PAC
8-9;
see also id.
9-10 (assuming that e-verify
poster must be allusion to Mira’s naturalized
citizenship and repeating allegations from
original complaint about “photographic activity”
aimed at Mira’s window by unknown person).)
Nor, in turn, does the proposed amended

App. 12

complaint add any new facts to support the claim
that Mira was fired in retaliation for engaging in
activity protected by Title VII. As before, there
are no allegations that Mira’s employer
criticized her performance in ethnically
degrading or sexist terms, no facts indicating
that male or non-Mexican-American employees
were more favorably treated at Argus, and no
suggestion that the sequence of events leading to
Mira’s termination smacked of sexism or
national-origin discrimination. See Littlejohn,
795 F.3d at 312 (enumerating the kinds of
allegations that may suffice to state a Title VII
claim). Altogether, the proposed amended
complaint fails to state facts that show any
linkage between Mira’s status as a MexicanAmerican woman and her alleged treatment at
work.
The proposed amended complaint also
falls short when it comes to the objectivity
requirement of the hostile work environment
claim and the defendant-knowledge requirement
of the retaliation claim. As was the case with the
original complaint, the proposed amended
complaint simply does not assert facts tending to
show that Mira’s “workplace [was] permeated
with discriminatory intimidation, ridicule, and

App. 13

insult that is sufficiently severe or pervasive to
alter the conditions of the victim’s employment
and create an abusive working environment.”
Littlejohn, 795 F.3d at 320-21 (quoting Harris v.
Forklift Sys., Inc., 510 U.S. 17, 21 (1993)).
Isolated jokes in bad taste, “framing” Mira for
not holding the door open for Stewart, allusions
to Mira’s fish oil and kale chips, and supposed
references to embarrassing videos that Mira
believes her previous employer (not Argus)
posted on social media do not constitute
incidents that are “sufficiently continuous and
concerted in order to be deemed pervasive.” Id.',
see also Petrosino v. BellAtl., 385 F.3d 210, 223
(2d Cir. 2004) (“Simple teasing, offhand
comments, or isolated incidents of offensive
conduct (unless extremely serious) will not
support a claim of discriminatory harassment.”).
And the proposed amended complaint adds no
new facts that tend to support Mira’s claim that
Argus knew about, and retaliated against Mira
for, her Title VII complaint to her previous
emmployer, Platts; instead, it once again moves
from the assertion that Argus “has a documented
collaborative [business] relationship with Platts”
to the unsubstantiated conclusion that Argus
was “[{Inspired by Platts” in its alleged
treatment of Mira. (PAC at 3.) See, e.g., Payne

App. 14

v. Malemathew, No. 09-cv-1634 (CS), 2011 WL
3043920, at *4 (S.D.N.Y. July 22, 2011)
(dismissing retaliation claim where, among
other things, plaintiff alleged no facts indicating
that employer knew of employee’s engagement
in protected activity).
In
sum,
the
proposed
amended
complaint’s factual allegations—like those in the
original complaint—are not enough to raise
Mira’s right to relief under Title VII above the
speculative level, and they fail to “nudge □” her
claims “across the line from conceivable to
plausible.” Twombly, 550 U.S. at 570. The
Court accordingly denies Mira’s request for leave
to amend as to her Title VII claims.
B. 42 U.S.C. § 1981
Mira’s proposed amended complaint
asserts new claims under Section 1981,
presumably to cure a defect of the original
complaint, which asserted Title VII claims
against the three individual Defendants in this
case. Although the Second Circuit has held that
Title VII does not provide for individual liability,
see Wrighten v. Glowski, 232 F.3d 119, 120 (2d
Cir. 2000) (per curiam), individuals may be held
liable under Section 1981, which “outlaws
discrimination with respect to the enjoyment of

App. 15

benefits, privileges, terms, and conditions of a
contractual relationship, such as employment.”
Patterson v. Cty. of Oneida, N.Y., 375 F.3d 206,
224 (2d Cir. 2004). Nevertheless, “[t]he same
core substantive standards that apply to claims
of discriminatory conduct in violation of Title VII
are also applicable to claims of discrimination in
employment in violation of [Section] 1981.”
Wiercinski v. Mangia 57, Inc., 787 F.3d 106, 113
(2d Cir. 2015). Moreover, “a plaintiff must
demonstrate ‘some affirmative link to causally
connect the [individual defendant] with the
discriminatory action.”’ Whidbee v. Garzarelli
Food Specialties, Inc., 223 F.3d 62, 75 (2d Cir.
2000).
As against the individual Defendants,
however, Mira’s allegations suffer from all the
same deficiencies just discussed in connection
with her Title VII claims against Argus: in brief,
the proposed amended complaint fails to show
that Mira was terminated, subjected to a hostile
environment, or retaliated against because of
her protected characteristics or her participation
in a protected activity. Indeed, a number of the
allegations in the new complaint do not even
pertain to the individual Defendants named
here—Stewart, Demopoulos, and Weigel—and

App. 16

so do not support Mira’s Section 1981 claims.
(See, e.g., PAC 16 (recounting comment about
Mira’s being “watched” by colleague Louise
Burke and jokes about Burger King and Dora the
Explorer by colleague Stefka Illieva); id. If 10
(reporting “photographic activity” aimed at
Mira’s apartment by unknown person).) Other
allegations do concern Stewart, Demopoulos,
and Weigel, but have nothing to do with
discriminatory treatment of Mira on the basis of
her sex or national origin. (See, e.g., PAC f 8
(reporting another coworker’s overheard
comment to Weigel about a “good IrishAmerican”); id. 1 9 (assuming Weigel’s question
about whether Mira had visited a penitentiary
museum was an “attempt to criminalize her”); id.
U 16 (seemingly odd comments by Stewart about
“kale chips” and “fish oil”); id. (social media
posting by Stewart about Mira’s hiccup).) The
few scattered allegations that even approach
national origin- or sex-related topics have no
apparent connection with Mira’s eventual
termination in May of 2014. (See, e.g., PAC If 8
(second-hand information about racial joke told
by Stewart at an office party in December of
2013); id. If 17 (Stewart greeting Mira in a
“highly sexualized tone of voice” in September of
2013); id. (overheard comment by Demopoulos

App. 17

about another employee’s ancestors “kicking
out” Mexicans in September of 2013).) In sum,
the proposed amended complaint comes nowhere
close to alleging facts sufficient to make out
claims for individual liability under Section 1981
against Stewart, Demopoulos, or Weigel. The
Court therefore also denies as futile Mira’s
request for leave to amend her complaint to add
those claims.
C. 42 U.S.C. § 1985(3)
Mira’s proposed amended complaint also
adds a claim under 42 U.S.C. § 1985(3), which
prohibits conspiracies to deprive people of their
civil rights. “The four elements of a § 1985(3)
claim are (l) a conspiracy; (2) for the purpose of
depriving, either directly or indirectly, any
person or class of persons of equal protection of
the laws, or of equal privileges and immunities
under the laws! (3) an act in furtherance of the
conspiracy; (4) whereby a person is either
injured in his person or property or deprived of
any right of a citizen of the United States.” Mian
v. Donaldson, Lufkin & Jenrette Sec. Corp., 7
F.3d 1085, 1087-88 (2d Cir. 1993). Additionally,
“the conspiracy must also be motivated by ‘some
racial or perhaps otherwise class-based,

App. 18

invidious discriminatory animus behind the
conspirators’ action.’” Id. at 1088.
Construed liberally, the new complaint
alleges that Platts, Mira’s former employer and
not a defendant here, conspired with Argus to
violate Mira’s rights under Title VII. But the
wholly conclusory allegations of conspiracy lack
any factual basis and would not survive a motion
to dismiss. The proposed amended complaint
moves from the banal observation that Argus
and Platts have a “collaborative” business
relationship—both are in the oil price reporting
industry—to the entirely unsupported claim
that Argus conspired with and “aided and
abetted” Platts in a scheme to discriminate and
retaliate against Mira. (PAC at 3; id.
3, 6.)
Furthermore, Mira fails to plead any facts
showing that the alleged conspiracy was
motivated
by
“class-based,
invidious
discriminatory animus.” Mian, 7 F.3d 1088.
Accordingly, the Court once again denies as
futile Mira’s request for leave to amend to add
her conspiracy claim.
D. State and City Law Claims
Having found that none of the proposed
amended complaint’s federal-law claims would
survive a motion to dismiss, the Court declines

App. 19

to grant leave to amend with respect to Mira’s
state-and city-law claims. The Court would have
only supplemental jurisdiction over those
claims—the parties here are not completely
diverse, so there is no basis for diversity
jurisdiction—and, as discussed in the Court’s
previous order, the Second Circuit has
instructed that in most cases where all federal
claims have been dismissed before trial, “the
balance of factors to be considered under the
[supplemental] jurisdiction doctrine—judicial
economy, convenience, fairness, and comity—
will point toward declining to exercise
jurisdiction over the remaining state-law
claims.” Valencia exrel. Franco v. Lee, 316 F.3d
299, 305 (2d Cir. 2003) (quoting Carnegie-Mellon
Univ. v. Cohill, 484 U.S. 343, 350 n.7 (1998)); see
also United Mine Workers v. Gibbs, 383 U.S.
715, 726 (1966) (“[I]f the federal law claims are
dismissed before trial...the state claims should
be dismissed as well.”); 28 U.S.C § 1367(c)(3)
(“[A] district courtD may decline to exercise
supplemental jurisdiction over a claim...if...the
district court has dismissed all claims over
which it has original jurisdiction.”). Accordingly,
because the Court would decline to exercise
jurisdiction over the state- and city-law claims
after dismissing the federal-law claims, it would

App. 20

be futile for Mira to amend her complaint to
assert those claims.
IV. CONCLUSION
For the reasons stated above, IT IS
HEREBY ORDERED THAT Plaintiffs request
for leave to amend her complaint is DENIED.
The Clerk of Court is respectfully directed to
close this case. SO ORDERED.
Dated: May 16, 2017
New York, New York

RICHARD J. SULLIVAN
United State District Judge

